   U.S. ELECTION ASSISTANCE COMMISSION 

        OFFICE OF INSPECTOR GENERAL





                      FINAL REPORT:
      AUDIT OF U.S. ELECTION ASSISTANCE COMMISSION’S

           COMPLIANCE WITH SECTION 522 OF THE

         2005 CONSOLIDATED APPROPRIATIONS ACT





NO. I-PA-EAC-02-08
MARCH 2009
                          U.S. ELECTION ASSISTANCE COMMISSION
                                   OFFICE OF INSPECTOR GENERAL

                                 1225 New York Ave. NW - Suite 1100 

                                       Washington, DC 20005




                                                                                    March 4, 2009

Memorandum

To:          	Gineen Beach
              Chair, U.S. Election Assistance Commission

From:	       Curtis W. Crider
             Inspector General

Subject: 	 Final Audit Report – Audit of U.S. Election Assistance Commission’s Compliance
           with Section 522 of the 2005 Consolidated Appropriations Act
           (Assignment No. I-PA-EAC 02-08)

        We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to conduct the subject audit. The objective of the audit was
to determine whether: (1) the necessity of using personally identifiable information for
processing was properly evaluated; (2) the EAC had established adequate procedures governing
the collection, use and security of personally identifiable information; and (3) EAC had properly
complied with the prescribed procedures to prevent unauthorized access to and the unintended
use of personally identifiable information.

       The review found that the EAC was not fully compliant with several Privacy Act
Requirements:

      	 A Chief Privacy Officer with the responsibility for monitoring and enforcing privacy
         related policies and procedures has not been designated.

      	 EAC has not identified systems housing personally identifiable information or conducted
         related Privacy Impact Assessments as required by the Office of Management and Budget
         Memorandum 06-16, Requirements for Protecting Personally Identifiable Information.

      	 No formalized policies and procedures are in place for Personally Identifiable
         Information which: (1) explicitly identify the rules for determining whether physical
         removal is allowed; (2) require the information be encrypted and that appropriate
         procedures, training and accountability measures are in place to ensure that remote use of
         this encrypted information does not result in bypassing the protections provided by the
         encryption; (3) explicitly identify the rules for determining whether remote access is
         allowed for personally identifiable information that can be removed; (4) require that the
         remote access be accomplished via a virtual private network connection established using
         agency issued authentication certificate (s) or hardware token, when remote access is
         allowed; (5) identify the rules for determining whether download or remote storage of the
         information is allowed, when remote access is allowed.
       Based on the Executive Director’s response to the draft report, dated February 20,
2009, we consider Recommendation No. 4 resolved and implemented. The remaining
recommendations are considered resolved but not implemented. Please notify the Office of
Inspector General when the proposed corrective actions have been completed.

        The Inspector General Act of 1978, as amended, requires semiannual reporting to
Congress on all reports issued, actions taken to implement recommendations, and
recommendations that have not been implemented. Therefore, we will include the information in
the attachment in our next semiannual report to Congress. The distribution of this report is not
restricted, and copies are available for public inspection.

       We appreciate the cooperation and assistance of EAC personnel during the audit. If you
or your staff has any questions, please contact me at (202) 566-3125.

Attachments

Cc: Commissioners Hillman, Davidson
   Executive Director
   Chief Operating Officer
   Director of Administration
ELECTION ASSISTANCE COMMISSION

             (EAC)



 Report on the 2008 Review of EAC’s Compliance

with Section 522 of the Consolidated Appropriations

                     Act, 2005.

 (Policies, Procedures & Practices for Protection of

         Personally Identifiable Information)





               Clifton Gunderson LLP

                September 30, 2008

                                                   TABLE OF CONTENTS



                                                                                                                                PAGE



TRANSMITTAL LETTER............................................................................................................1




EXECUTIVE SUMMARY ............................................................................................................2




BACKGROUND..........................................................................................................................2




SCOPE AND METHODOLOGY .................................................................................................5




DETAILED RESULTS OF REVIEW............................................................................................7




APPENDIX ...............................................................................................................................13

                                                                            t

a1


Mr. Curtis Crider
Office of the Inspector General
U.S. Election Assistance Commission
1225 New York Avenue NW, Suite 1100
Washington, DC 20005

Dear Mr. Crider,

We are pleased to present our report on the Election Assistance Commission’s (EAC)
compliance with protection of personal data in an identifiable form. This review included
assessing compliance with applicable federal security and privacy laws and regulations as well
as assessing the privacy and data protection procedures used by EAC as they relate to the
guidelines set forth in Section 522-d of the Omnibus Spending Bill for Transportation, Treasury,
Independent Agencies, and General Government Appropriations Act of 2005. The objective of
our review was to determine whether: (1) the necessity of using personally identifiable
information for processing was properly evaluated; (2) EAC had established adequate
procedures governing the collection, use and security of personally identifiable information; and
(3) EAC had properly complied with the prescribed procedures to prevent unauthorized access
to and unintended use of personally identifiable information.

We interviewed key personnel involved in identifying and protecting personally identifiable
information and reviewed documentation supporting EAC’s efforts to comply with federal privacy
and security laws and regulations.

This performance audit was conducted from August 2008 to September 2008 at the EAC office
in Washington, District of Columbia in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We appreciate the opportunity to have served you once more and are grateful for the courtesy
and hospitality extended to us by EAC personnel. Please do not hesitate to call me at (301)
931-2050 or email at george.fallon@cliftoncpa.com if you have questions.

Sincerely,
CLIFTON GUNDERSON LLP


a1
Calverton, Maryland
September 30, 2008
11710 Beltsville Drive
Suite 300
Calverton, MD 20705­3106


                                                                                h
tel: 301­931­2050
fax: 301­931­1710                                  1
www.cliftoncpa.com                Offices in 17 states and Washington, DC
EXECUTIVE SUMMARY

Based on our review, EAC has (a) developed and implemented a privacy training course for
employees and contractors; and (b) assigned privacy oversight responsibilities. However, more
work remains to be accomplished. Specifically, we noted the following:

EAC is not fully compliant with several Privacy Act Requirements, including:

     •		 A Chief Privacy Officer with the responsibility for monitoring and enforcing privacy
         related policies and procedures has not been designated.
     •		 EAC has not identified systems housing personally identifiable information or conducted
         related Privacy Impact Assessments (PIA’s) as required by the Office of Management
         and Budget (OMB) Memorandum 06-16, Requirements for Protecting Personally
         Identifiable Information.
     •		 No formalized policies and procedures are in place for Personally Identifiable Information
         which: (1) explicitly identify the rules for determining whether physical removal is
         allowed; (2) require the information be encrypted and that appropriate procedures,
         training and accountability measures are in place to ensure that remote use of this
         encrypted information does not result in bypassing the protections provided by the
         encryption; (3) explicitly identify the rules for determining whether remote access is
         allowed for personally identifiable information that can be removed; (4) require that the
         remote access be accomplished via a virtual private network (VPN) connection
         established using agency issued authentication certificate (s) or hardware token, when
         remote access is allowed; (5) identify the rules for determining whether download or
         remote storage of the information is allowed, when remote access is allowed.

BACKGROUND

On December 8, 2004, the President signed into law H.R. 4818, Consolidated Appropriations
Act, 2005 (Public Law 108-447). Title V, Section 522 of this act mandates the designation of a
senior privacy official, establishment of privacy and data protection procedures, a written report
of the agency’s use of information in an identifiable form,1 an independent third party review of
the agency’s use of information in an identifiable form, and a report by the Inspector General to
the agency head on the independent review and resulting recommendations. Section 522 (d) (3)
requires the Inspector General to contract with an independent third party privacy professional
to evaluate the agency’s use of information in an identifiable form, and the privacy and data
protection procedures of the agency. The independent review is to include (a) an evaluation of
the agency’s use of information in identifiable form, (b) an evaluation of the agency’s privacy
and data protection procedures, and (c) recommendations on strategies and specific steps to
improve privacy and data protection management. Section 522 requires the agency to have an
independent third party review at least every 2 years and requires the Inspector General to
submit a detailed report on the review to the head of the agency. The third party report and
related Inspector General report are to be made available to the public, i.e. internet availability.

In addition to Section 522, Federal agencies are subject to a number of other legislative
requirements aimed at protecting the privacy rights of individuals and agency held sensitive
information. Further, recent high-profile incidences surrounding actual or potential privacy

1
  Identifiable form is any representation of information that permits the identity of an individual to whom the information applies
to be reasonably inferred by either direct or indirect means. Personally identifiable information (PII) has a similar meaning and
will be the term used throughout this document.


                                                                 2

breaches or loss of sensitive information has lead to increased direction from OMB to agencies
in the form of a memorandum. A listing of key privacy related statutes, policies and guidelines
follows.

   •		 The Privacy Act of 1974, as amended
   •		 The E-Government Act of 2002, section 208
   •		 Federal Information Processing Standard Publication (FIPS PUB) 199, Standards for
       Security Categorization of Federal Information and Information Systems
   •		 FIPS PUB 200, Minimum Security Requirements for Federal Information and Information
       Systems
   •		 NIST Special Publications 800-60, volume I: Guide for Mapping Types of Information
       and Information Systems to Security Categories
   •		 NIST 800-60, Volume II: Guide for Mapping Types of Information and Information
       Systems to Security Categories
   •		 OMB Circular No. A-130, Management of Federal Information Resources, Appendix I,
       Federal Agency Responsibilities for maintaining Records about Individuals
   •		 OMB Memorandum M-03-18, Implementation of E-government Act of 2002
   •		 OMB Memorandum M-03-22, OMB guide for Implementation of the E-Government Act of
       2002
   •		 OMB Memorandum M-05-08, Designation of Senior Agency Officials for Privacy
   •		 OMB Memorandum M-06-16, Protection of Sensitive Agency Information
   •		 OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable
       Information and Incorporating the Cost for Security in Agency Information Technology
       Investments
   •		 OMB Memorandum M-07-16, Safeguarding Against and Responding to Breach of
       Personally Identifiable Information
   •		 OMB Memorandum M-07-18, Ensuring New Acquisitions Include Common Security
       Configurations
   •		 OMB Memorandum M-07-19, Reporting Instructions for Federal Information Security
       Management Act and Agency Privacy Management
   •		 EAC Information System Security Policy (Draft)
   •		 EAC Privacy Protection Policies (Draft)

EAC’s use of personally identifiable information and related policies and procedures

Congress established EAC with the passage of the Help America Vote Act (HAVA) in October
2002. EAC became operational in fiscal year 2004. The EAC is an independent, bipartisan
agency created by HAVA. It assists and guides State and local election administrators in
improving the administration of elections for Federal office. The EAC provides assistance by
dispersing Federal funds to States to implement HAVA requirements, auditing the use of HAVA
funds, adopting the voluntary voting system guidelines, and serving as a national clearinghouse
and resource of information regarding election administration. The EAC also accredits testing
laboratories and certifies, decertifies, and recertifies voting systems.

EAC’s principle responsibilities are to:

    •		 Administer funds that HAVA authorized for states to improve the administration of
        Federal elections, to replace-punch card and lever-action voting machines, and to meet
        the election technology and other administrative requirements of HAVA. To date, states
        have received Federal payments of approximately $3 billion.


                                               3

    •		 Serve as a national clearinghouse on matters concerning the administration of elections
          under Federal law; and provide outreach to state and local election officials.
    •		 Develop and update standards on voting systems and provide guidance on subjects
         such as statewide voter registrations systems and provisional ballots critical to the
         implementation of HAVA.
    •		 Implement a system to accredit laboratories that test voting systems and to certify,
         decertify, and recertify voting system software and hardware against standards.

HAVA requires the EAC to:

    •		   Generate technical guidance on the administration of federal elections.
    •		   Produce voluntary voting systems guidelines.
    •		   Research and report on matters that affect the administration of federal elections.
    •		   Otherwise provide information and guidance with respect to laws, procedures, and
           technologies affecting the administration of Federal elections.
    •		   Administer payments to States to meet HAVA requirements.
    •		   Provide grants for election technology development and for pilot programs to test
           election technology.
    •		   Manage funds targeted to certain programs designed to encourage youth participation
           in elections.
    •		   Develop a national program for the testing, certification, and decertification of voting
           systems.
   •		    Maintain the national mail voter registration form that was developed in accordance with
          the National Voter Registration Act of 1993 (NVRA), report to Congress every two years
          on the impact of the NVRA on the administration of federal elections, and provide
          information to States on their responsibilities under that law.
   •		    Submit an annual report to Congress describing EAC activities for the previous fiscal
          year.

The EAC has an operating budget of approximately $26 million and has 38 employees and
contractors. The EAC is headed by four Commissioners who are nominated by the President
and confirmed by the U.S. Senate. Commissioners may serve only two consecutive terms.
Commissioners serve staggered terms. No more than two Commissioners may belong to the
same political party. The Commissioner Chairmanship rotates every year.

The EAC privacy function is temporarily assigned to the human resources specialist. However,
responsibilities for privacy policy development, leadership, monitoring or enforcement have not
been formally designated within a position description. A Privacy training course has been
developed which is required to be completed by all EAC employees and contractors. EAC
privacy policies and procedures are presently undergoing development, and in the interim,
employees and contractors are referred to respective policies existing at their external service
provider, General Services Administration (GSA). Privacy data is not stored, accessed or
transmitted electronically at EAC. All personnel documents (i.e. Personally Identifiable
Information(PII) data) are sent via fax, FedEx or United Postal Service (UPS) to the GSA
Agency Liaison’s office. This office uploads all EAC information (includes PII data) to the
appropriate applications or databases. EAC employees or contractors do not have access to the
GSA human resources system (i.e. CHRIS) which is utilized to store this data.




                                                   4

SCOPE AND METHODOLOGY

EAC’s Office of the Inspector General (OIG) contracted with Clifton Gunderson LLP to conduct
an audit of EAC’s privacy and data protection policies and procedures in compliance with
Section 522. The objective of this review was to assess the progress of EAC’s Privacy Office in
carrying out its responsibilities under federal law, more specifically, to determine whether: (1)
the necessity of using personally identifiable information for processing was properly evaluated;
(2) EAC had established adequate procedures governing the collection, use and security of
personally identifiable information; and (3) EAC properly complied with the prescribed
procedures to prevent unauthorized access to and unintended use of personally identifiable
information.

To address this objective, we reviewed federal statutes including the Privacy Act of 1974 and
Section 208 of the E-Government Act, to identify responsibilities of EAC’s Privacy Office. We
reviewed and analyzed privacy policies, guidance, and reports, and interviewed with officials
from the Privacy Office. The personnel interviewed included the acting Privacy Officer for EAC
to identify privacy office’s plans, priorities, and processes for implementing its responsibilities
using available resources.

We further evaluated the Privacy Office policies, guidance, and processes for ensuring
compliance with the Privacy Act, and the E-Government Act. We analyzed the System of
Records Notice (SORN)s and PIA development processes and assessed the progress of the
office in implementing these processes. This analysis included analyzing the Privacy Office’s
overview of PIAs developed and assessing the overall quality of published PIAs.

Perform an assessment of EAC’s privacy policies
We reviewed EAC information management practices for protection of PII, as they relate to the
guidelines set forth in Section 522-d of the 2005 Government Appropriations Act. Public Law
107-347, the E-Government Act of 2002, defines “identifiable form” as any representation of
information that permits the identity of an individual to whom the information applies to be
reasonably inferred by either direct or indirect means. We performed procedures to assist the
OIG in evaluating EAC’s information management practices in order to:

    A.	 Determine the accuracy of the descriptions of the use of information in identifiable form2
        while accounting for current technologies and processing methods;
    B.	 Determine the effectiveness of privacy and data protection procedures by measuring
        actual practices against established procedural guidelines;
    C.	 Determine compliance with the stated privacy and data protection policies of EAC and
        applicable laws and regulations;
    D.	 Determine whether all technologies used to collect, use, store, and disclose information
        in identifiable form allow for continuous auditing of compliance with stated privacy
        policies and practices governing the collection, use, and distribution of information in
        operation of the program, and


2
 information in identifiable form is information in an IT system or online collection: (i) that directly identifies an
individual (e.g., name, address, social security number or other identifying number or code, telephone number, email
address, etc.) or (ii) by which an agency intends to identify specific individuals in conjunction with other data
elements, i.e., indirect identification. (These data elements may include a combination of gender, race, birth date,
geographic indicator, and other descriptors).


                                                          5

   E.	 Provide EAC with recommendations, strategies, and specific steps, to improve privacy
       and data protection management.
   F.	 Evaluate EAC’s use of information in identifiable form.

We examined EAC’s PII policies, practices and data protection procedures and mechanisms in
operation. Specifically, the tasks focused on:

   •		 A review of the agency’s technology, practices and procedures with regard to the
       collection, use, sharing, disclosure, transfer, and storage of information in an identifiable
       form;
   •		 A review of the agency’s stated privacy and data protection policies and procedures for
       personal information of employees and the public;
   •		 A detailed analysis of agency intranet, network and Websites for privacy vulnerabilities;
   •		 A review of agency compliance with the Section 522 of the Appropriations Act of 2005;
   •		 An analysis of the extent to which the Privacy Report filed with the EAC Inspector
       General (IG) is accurate, accounts for the EAC’s current technologies, information
       processing, and whether all areas are consistent with the section 522 of the
       Appropriations Act 2005;
   •		 A follow-up review of findings identified in any previous EAC OIG reports; and

Given that the overall privacy control environment of the EAC is based on the Privacy           Act,
incremental compliance directives from OMB, and internal policies and procedures,                the
contractor should consider, and include where appropriate, assessment of OMB privacy            and
security memorandums as well as EAC policies and procedures in determining compliance           with
Section 522.

The E-Government Act of 2002 requires agencies to conduct a PIA either (1) before developing
or procuring information technology systems or projects that collect, maintain or disseminate
information in identifiable form or (2) when initiating a new electronic collection of information in
identifiable form for 10 or more persons (excluding agencies, instrumentalities or employees of
the federal government). In general, PIAs are required to be performed and updated as
necessary where a system change creates new privacy risks, for example, when converting
paper-based records to electronic systems. On the other hand, no PIA is required where (1)
information relates to internal government operations, (2) has been previously assessed under
an evaluation similar to a PIA, or (3) where privacy issues are unchanged.

To accomplish the above-mentioned objectives, we:

   •		 Verified that EAC had identified and maintained an inventory of information systems
       containing PII and systems requiring PIAs and had conducted PIAs for electronic
       information systems.
   •		 Reviewed a sample of PIAs for the systems selected under review and noted the
       following:
       o	 What information was collected (e.g., nature and source).
       o	 Why the information was collected (e.g., to determine eligibility).
       o	 Intended use of the information (e.g., to verify existing data).
       o	 With whom the information was shared (e.g., another agency for a specified
            programmatic purpose).




                                                 6

         o	 What opportunities individuals had to decline to provide information or to consent to
             particular uses of the information (other than required or authorized uses), and how
             individuals communicated consent.
         o	 How the information was secured from abusive use (e.g., administrative and
             technological controls).
     •		 Selected a representative sample of systems and tested technical controls to achieve
         the PII protection objectives.
     •		 Reviewed the nature and use of PII, to determine whether a SORN was required and if
         required, whether one was published. We further reviewed EAC’s publication of SORNs
         in the Federal Register and verified that they contained only information about
         individuals that was "relevant and necessary" to accomplish EAC’s purpose. We verified
         that this information was updated as necessary.

For the Fiscal Year 2008 Privacy Assessment, we were not engaged to and did not perform
procedures to determine if the inventory of systems containing PII data was exhaustive and if
EAC had performed procedures to ensure all EAC IT systems had been reviewed for existence
of PII information.

DETAILED RESULTS OF REVIEW

1.      EAC is not fully compliant with several Privacy Act Requirements, including:

        •		   A Chief Privacy Officer with the responsibility for monitoring and enforcing privacy
              related policies and procedures has not been designated.
        •		   EAC has not identified systems housing personally identifiable information or
              conducted related PIA’s.
        •		   EAC has not developed formal policies that address the information protection
              needs associated with PII that is accessed remotely or physically removed.

        We reviewed EAC's compliance with privacy protection of PII and determined that EAC
        has temporarily assigned Privacy Officer duties to the Human Resource Specialist.

        We noted the 2008 FISMA Review performed for the GSA does not specify which
        systems were covered by this review. The FISMA template lists GSA systems by region
        and bureau [rather than by the system name] making it difficult to determine if EAC
        supported systems were part of this review. EAC does not have an inventory of systems
        covered by the FISMA evaluation and in which bureau or region these systems are
        located, or performed a PIA on systems identified as containing EAC PII.

        OMB M-06-16 states that: Verify information categorization to ensure identification of
        personally identifiable information requiring protection when accessed remotely or
        physically removed. The purpose is to review the Federal Information Processing
        Standards (FIPS) Publication No. 199 security categorization of organizational
        information with the focus on remote access and physical removal. The intent is to
        ensure all personally identifiable information through which a moderate or high impact
        might result has been explicitly identified. For example, databases where the loss,
        corruption, or unauthorized access to personally identifiable information contained in the
        databases could result in a serious adverse effect, with widespread impact on individual
        privacy being one area of specific concern.




                                                 7

NIST Special Publication 800-53 Rev 2 (PL-5) states: ‘The organization conducts a
privacy impact assessment on the information system in accordance with OMB policy’.

OMB Circular M-06-16 ‘Protection of Sensitive Agency Information’ requires agencies to
implement organizational policy that addresses the information protection needs
associated with personally identifiable information that is accessed remotely or
physically removed’.

We reviewed the critical elements required of government agencies and organizations in
2007 and noted EAC ‘s level of compliance. The following questions were extracted from
the Data Collection Instrument issued by the President’s Council on Integrity and
Efficiency (PCIE). For purposes of this assessment, we extracted high-level questions
only. Our results are documented in the following table.


                               Yes, No,
                                Partial,
                                  Not
   Ref      Control Step      Applicable           Clifton Gunderson Comments
 Step 1   Has EAC             Partial        Although EAC has not received an
          confirmed                          inventory of all systems used by GSA to
          identification of                  support EAC’s activities, EAC has identified
          personally                         the need to protect all portable computers
          identifiable                       accessing EAC data. To achieve this goal,
          information                        management has affirmed that EAC has
          protection                         procured “Credant” encryption software. We
          needs? If so to                    noted during the period of our audit that
          what level?                        about 70% percent of all EAC computers
                                             have been encrypted with the Credent
                                             Encryption software. We randomly selected
                                             five (5) laptops to determine if they are
                                             indeed encrypted and noted no exception.

                                             EAC has identified that Pegasys and
                                             Comprehensive         Human        Resources
                                             Integrated System (CHRIS) are the GSA
                                             owned systems that contain EAC’s
                                             personally identifiable information.
 Step 2   Has EAC verified    Partial        Administrative      policies   have     been
          the adequacy of                    developed addressing employee conduct
          organizational                     and hiring procedures. However, EAC has
          policy? If so, to                  not identified security policies and
          what level?                        procedures.
 Step 3   Has EAC             Partial        See Step 1 above. EAC has procured
          implemented                        encryption software to protect information
          protections for                    being transported and/or stored off-site; We
          personally                         noted during the period of our audit that
          identifiable                       about 70% percent of all EAC computers
          information being                  have been encrypted with the Credent
          transported                        Encryption software. We randomly selected
          and/or stored                      five (5) laptops to determine if they are


                                        8

         offsite? If so, to                  encrypted and noted no exception.
         what level.
                                             We noted that EAC issued blackberries are
                                             not currently encrypted with the Credent
                                             encryption software.
Step 4   Has EAC              Partial        The IG’s office has signed the GSA’s Rules
         implemented                         of Behavior policy establishing acceptable
         protections for                     use of government information resources
         remote access to                    including downloading software, improper
         personally                          web access, etc. EAC’s rules of behavior
         identifiable                        are currently incorporated into the EAC
         information? If so                  Security Awareness and Privacy Training
         to what level.                      programs.

                                             EAC has not conducted a risk assessment
                                             that address the risk associated with
                                             download, remote access, or other removal
                                             or PII from each system containing PII.

                                             Virtual Private Network (VPN) use has been
                                             granted to a selected few individuals. We
                                             selected a sample of five (5) VPN users to
                                             determine      if   their   accesses     are
                                             appropriately authorized without exception.

                                             EAC does not have Plan of Actions and
                                             Milestones (POA & M) for developing and
                                             implementing protection of sensitive
                                             information.
Sect     Has the Agency       Partial        We noted during the period of our audit that
2.1      encrypted all                       about 70% percent of all EAC computers
         data on mobile                      have been encrypted with the Credent
         computers/devic                     Encryption software. We randomly selected
         es which carry                      five (5) laptops to determine if they are
         agency data                         encrypted and noted no exception.
         unless the data
         determined to be                    We noted that EAC issued blackberries or
         non-sensitive, in                   portable memory sticks are not currently
         writing by                          encrypted with the Credent encryption
         Agency Deputy                       software.
         Secretary or an
         individual he/she
         may designate in
         writing?
Sect     Does the agency      No             We were not provided evidence of major
2.2      use remote                          steps and milestones directed to implement
         access with two-                    two-factor authentication.
         factor
         authentication
         where one of the
         factors is


                                        9

          provided by a
          device separate
          from the
          computer gaining
          access?
 Sect     Does the Agency     Partial         Although EAC has implemented a “time­
 2.3      use a “time-out”                    out” function for EAC desktops, laptops and
          function for                        VPN      access      requiring   user     re-
          remote access                       authentication after 30 minutes of inactivity,
          and mobile                          formalized EAC policies and procedures
          devices requiring                   requiring this configuration have not been
          user re-                            developed to date.
          authentication
          after 30 minutes
          of inactivity?
 Sect     Does the Agency     No              EAC does not own or operate any
 2.4      log all computer-                   information systems that hold sensitive
          readable data       Not             information. All identified systems, Pegasys,
          extracts from       Applicable      FMIS and CHRIS are owned and managed
          databases                           by GSA.
          holding sensitive
          information and                     EAC on the other hand, has not defined
          verifies each                       which systems have to be logged and the
          extract including                   nature of activity to be logged and reported
          sensitive data                      by its service provider.
          has been erased
          within 90 days or
          its use is still
          required?
 STEP     Has the Agency      Partial         EAC has not documented procedures to
 5        implemented                         follow when responding to a breach of PII.
          provisions of                       However, EAC follows GSA policies on the
          OMB M07-16 of                       reporting of PII breaches within the first
          May 22, 2007,                       hour of occurrence. EAC is also required to
          "Safeguarding                       fill out the GSA incident report to describe
          Against and                         the event and any other details.
          Responding to
          the Breach of
          PII"

Recommendations

We recommend EAC management:

1)	 Designate a Chief Privacy Officer or formally appoint an individual with the
    responsibility of monitoring and enforcing privacy related policies and procedures.
    Privacy responsibilities should be added to the position description (PD) of this
    assigned individual.

2)	 Develop an understanding of which EAC systems are covered by GSA's FISMA
    review rotation plan. Consequently, EAC should request from the service provider


                                        10

   their systems review rotation schedule and note which systems are covered in each
   year's rotation. For fiscal years where EAC systems are not covered GSA should
   grant EAC access to review these systems to comply with FISMA requirements.

3) Develop and implement formal policies that address the information protection needs
   associated with PII to include:
   a) references to applicable information technology security policies and procedures
   b) EAC specific procedures for responding to breaches of PII
   c) identification of which PII systems are to be logged and the nature of activity to
      be logged and reported by the respective service provider(s)
   d) requirements to utilize a time out function for remote access and mobile devices
      requiring user re-authentication after 30 minutes of inactivity.

4)	 Complete the encryption of blackberry devices and laptops with Credent Encryption
    software as well as implement two-factor authentication.

5)	 Develop and maintain a plan of actions and milestones (POA&M) to address
    weaknesses identified in developing and implementing protections of PII.

6)	 Conduct a risk assessment which addresses the risks associated with the download,
    remote access, or other removal of PII from each system containing PII.

Management’s Response:

1)	 The Human Resources Director will be assigned as the Chief Privacy Officer and will
    modify the PD to include the necessary functions. In addition she will be taking
    necessary training towards certification. This will be effective March 16, 2009. Alice
    Miller, the COO will be responsible for implementation.

2)	 EAC has an inventory of GSA systems that we use. These GSA systems are
    covered by GSA’s FISMA review. With this, EAC has an understanding for the
    rotation schedule for these systems. GSA provides EAC with the required documents
    for FISMA compliance. EAC will request the documentation for these systems to
    include the POA&M to identify what vulnerabilities these systems have and what
    GSA is doing to remediate them in the off-years. The request will be completed by
    March 16 and will be the responsibility of the IT Specialist.

3)	 EAC has begun to evaluate the necessary steps to implement formal policies and
    procedures that address the information protection needs and have concluded that it
    will be necessary to procure outside help to fully implement the recommendation.
    Once the Continuing Resolution is lifted and budgetary resources are identified, EAC
    will consider releasing an RFP for the services. Anticipated date for release is within
    45 days of the removal of the CR and approval of a budget. The Contracting Officer
    and IT Specialist will be responsible for this task. In addition, EAC has taken some
    steps to implement the recommendations. For instance there is currently a 30 minute
    time out function for both RAS and VPN remote connections. Also, there is a
    maximum 15 minute time out function on all Blackberry mobile devices.

4)	 With the assistance of GSA, EAC has encrypted all Blackberry devices. The Credent




                                        11

   encryption software has been installed on all laptops. The EAC has begun the
   process of identifying appropriate software to encrypt thumb drives which will be
   encrypted prior to distribution to staff.

5)	 EAC is in the process of drafting a formal plan of actions and milestones to address
    weaknesses identified in the developing and implementing the protections of PII.
    Estimated date of the first release is June 30, 2009. Responsible party is Diana
    Scott, Director of Administration.

6)	 EAC intends to conduct a risk assessment which addresses the risks associated with
    the download, remote access or other removal of PII from each system containing
    PII. Once the Continuing Resolution is lifted and budgetary resources are identified,
    EAC will consider releasing an RFP for the services. Anticipated date for release is
    within 45 days of the removal of the CR and approval of a budget. The Contracting
    Officer, Chief Privacy Officer and IT Specialist will be responsible for this task.




                                       12

                                                                 APPENDIX



                           U. S. ELECTION ASSISTANCE COMMISSION 

                               OFFICE OF THE EXECUTIVE DIRECTOR


                                1225 New York Avenue, NW, Suite 1100 

                                       Washington, DC. 20005 





February 20, 2009 



MEMORANDUM 


TO:            Curtis Crider, Inspector General

FROM:          Thomas R. Wilkey, Executive Director

RE:            Responses to Draft Audit Report - Review of U.S. Election Assistance
               Commission’s Compliance with Section 522 of the Consolidated
               Appropriations Act, 2005 (Assignment No. 1-EV-EAC 02-08)


Recommendation #1

Designate a Chief Privacy Officer or formally appoint an individual with the
responsibility of monitoring and enforcing privacy related policies and procedures.
Privacy responsibilities should be added to the position description (PD) of this assigned
individual.

Response # 1

The Human Resources Director will be assigned as the Chief Privacy Officer and will
modify the PD to include the necessary functions. In addition she will be taking
necessary training towards certification. This will be effective March 16, 2009. Alice
Miller, the COO will be responsible for implementation.


Recommendation #2

Develop an understanding of which EAC systems are covered by GSA’s FISMA review
rotation plan. Consequently, EAC should request from the service provider their systems
review rotation schedule and note which systems are covered in each year’s rotation. For
fiscal years where EAC systems are not covered, GSA should grant EAC access to
review these systems to comply with FISMA requirements.




                                            13
                                                                       APPENDIX



Response #2

EAC has an inventory of GSA systems that we use. These GSA systems are covered by
GSA’s FISMA review. With this, EAC has an understanding for the rotation schedule for
these systems. GSA provides EAC with the required documents for FISMA compliance.
EAC will request the documentation for these systems to include the POA&M to identify
what vulnerabilities these systems have and what GSA is doing to remediate them in the
off-years. The request will be completed by March 16 and will be the responsibility of
the IT Specialist.


Recommendation #3

Develop and implement formal policies that address the information protection needs 

associated with PII to include: 

a) references to applicable information technology security policies and procedures, 

b) EAC specific procedures for responding to breaches of PII, 

c) identification of which PII systems are to be logged and the nature of activity to be 

   logged and reported by the respective service provider(s).
d) requirements to utilize a time out function for remote access and mobile devices
   requiring user re-authentication after 30 minutes of inactivity.

Response #3

EAC has begun to evaluate the necessary steps to implement formal policies and
procedures that address the information protection needs and have concluded that it will
be necessary to procure outside help to fully implement the recommendation. Once the
Continuing Resolution is lifted and budgetary resources are identified, EAC will consider
releasing an RFP for the services. Anticipated date for release is within 45 days of the
removal of the CR and approval of a budget. The Contracting Officer and IT Specialist
will be responsible for this task. In addition, EAC has taken some steps to implement the
recommendations. For instance there is currently a 30 minute time out function for both
RAS and VPN remote connections. Also, there is a maximum 15 minute time out
function on all Blackberry mobile devices.


Recommendation #4

Complete the encryption of blackberry devices and laptops with Credent Encryption
software as well as implement two factor authentication

Response #4

With the assistance of GSA, EAC has encrypted all Blackberry devices. The Credent
encryption software has been installed on all laptops. The EAC has begun the process of




                                              14
                                                                APPENDIX


identifying appropriate software to encrypt thumb drives which will be encrypted prior to
distribution to staff.


Recommendation #5

Develop and maintain a plan of actions and milestones (POA&M) to address weaknesses
identified in developing and implementing protections of PII.

Response #5

EAC is in the process of drafting a formal plan of actions and milestones to address
weaknesses identified in the developing and implementing the protections of PII.
Estimated date of the first release is June 30, 2009. Responsible party is Diana Scott,
Director of Administration.


Recommendation #6

Conduct a risk assessment which addresses the risk associated with the download, remote
access, or other removal of PII from each system containing PII.

Response #6

EAC intends to conduct a risk assessment which addresses the risks associated with the
download, remote access or other removal of PII from each system containing PII. Once
the Continuing Resolution is lifted and budgetary resources are identified, EAC will
consider releasing an RFP for the services. Anticipated date for release is within 45 days
of the removal of the CR and approval of a budget. The Contracting Officer, Chief
Privacy Officer and IT Specialist will be responsible for this task.


ccs:   Chair Beach
       Commissioners Hillman, Davidson, Rodriguez
       Alice Miller, Chief Operating Officer
       Diana Scott, Director of Administration




                                              15
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1225 New York Ave. NW - Suite 1100
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
